                                     _




  OFFICE OF AUDIT
  INFORMATION SYSTEMS AUDIT DIVISION
  WASHINGTON, DC




                                 f       —   I   ‘   I



                      INSPECTOR GENERAL
                         UNITED STATES DEFATiTAENT
                             5                           Af   T


                                                               4
                     S                                        I


                                                          /



           U.S. Department of Housing and Urban
               Development, Washington, DC

               Integrated Core Financial System




2013-DP-0003                                                       December 19, 2912
 11111111                                                Issue Date: December 19, 2012

                                                         Audit Report Number: 2013-DP-0003




TO:             rice Jones. Deputy Seretary, SD

FROM:
                  A h/it
                  4               &‘
                Iady W/TV1cGifin Assistant Inspector General for Audit, GA

SUBJECT:        Review of the Data Conversion Activities and Interface Plans and Procedures for
                the Implementation of BUD’s Integrated Core Financial System

        Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review on the Data Conversion Activities and
Interface Plans and Procedures for the Implementation of HUD’s Integrated Core Financial
System.

        HUD Handbook 2000.06, REV— 4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

        The Inspector General Act. Title 5 United States Code, section 8L, requires that OIG post
its publicly available reports on the OIG Web site. Accordingly, this report will be posted at
       ww.hudoig.gpv.

        If you have any questions or comments about this report. please do not hesitate to call me
at (202) 402-8107.


Attachment

cc:
David Sidari, Chief Financial Officer, F
Jerry Williams. Chief Information Officer, Q
Jemine Brvon, Chief Procurement Officer. N
Karen McBride. Senior Policy Analyst. FA
Eunice Dawkins, Audit Liaison Officer, SD
 III”                                       December 19. 2012
                                            Review of the Data Conversion Activities and Interface
                                            Plans and Procedures for the Implementation of FIUD’s
                                            Integrated Core Financial System



Highlights
 Audit Report 2013-DP-0003


  What We Audited and Why                      What We Found
We audited the U.S. Department of            HUD’s effort to modernize its financial management
Housing and Urban Development’s              system is called the HUD Integrated Financial
(HUD) plans and procedures fbr data          Management Improvement Project (HIFMIP). One
conversion and system interfaces for the     goal of HIFMIP was to create ICFS, and replace only
implementation of the HUD Integrated         two of the five financial management systems that
Core Financial System (ICFS).                HUD uses to accomplish the core financial system
We conducted this audit as a component       functions. The OCFO did not properly plan and
of the testing of general and technical      manage the implementation of lETS. Since 2003,
controls for information systems in          HUD has spent more than 535 million on HIFMIP and
connection with the annual audit of          does not have an operational new core financial
HUD’s consolidated financial                 system. The initial vision document was initiated in
statements.                                  2003 and issued in 2004. The contract was awarded in
                                             September 2010. Before executing the contract,
 What W 1ccommem1                            OCFO did not update Project information, follow up
                                             with system owners to ensure that required actions
 We recommend that the Deputy
                                             were completed, plan tir the conversion of public and
 Secretary reevaluate the interface
                                             Indian housing data within the HUD Central
 approach documents and the data
                                            Accounting and Program System. set up a Project
 conversion plan to ensure that tasks for
                                            performance measurement baseline for each data
 each section have been adequately
                                            conversion cycle, and ensure that the scope of the
 completed by HUD’s Integrated
                                            conversion in the conversion plan would meet HUD’s
 Financial Management Improvement
                                            needs and comply with the contract. Also, OCFO did
 Project contractor and verified by
                                            not ensure that key staff and program office
 OCFO. Specifically. the Office of the
                                            stakeholders were involved in pertinent decisions,
Chief Financial Officer (OCFO) should
                                            establish an effective deliverable approval process.
complete end-to-end testing of the
                                            ensure that converted data were verified by an
interface processes. secure an
                                            independent verification and validation contractor, and
independent yen ti cation and validation
                                            verify that the contractor complied with the scope of
contractor tor data conversion
                                            the conversion.
validation, coordinate with program
offices to ensure that interface systems
                                            Base period performance goals and objectives were not
are compatible, and ensure that the
                                            met and additional time and funding will he needed to
current financial applications are
                                            complete the project.
available until a compatible application
is complete.
                             TABLE OF CONTENTS

Background and Objective                                                      3

Results of Audit
        Finding 1: OCFO Did Not Properly Plan and Manage the Implementation   4
                   of ICFS

Scope and Methodology                                                         14

Internal Controls                                                             15

Appendixes
A.    Auditee Comments and OIG’s Evaluation                                   16
B.    Total Project Cost From Fiscal Years 2003 to 2012                       18
C.    HIFMIP Timeline                                                         19
                       BACKGROUND AND OBJECTIVE
Since fiscal year 1 991. OIG has annually reported on the lack of an integrated core financial
system in our audits of the HUD’s financial statements. HUD uses five separate financial
management systems to accomplish the core financial system functions. The current effort to
modernize HUD’s financial management system is called the HUD Integrated Financial
Management Improvement Project (HIFMIP). The initial vision document was initiated in 2003
and issued in 2004 and functional documents were created. However, progress was halted due to
contract protest and the Office of Budget and Management (0MB) involvement. The contract
was awarded in September 2010. See Appendix C fhr a timeline of events for HIFMP. The
original scope of HIFMIP was to encompass all of HUD’s financial systems, including those
supporting FHA and Ginnie Mae. However, the inclusion of the FHA and Ginnie Mae portions
has been put Ofl hold as a result of review by 0MB. Also, the first phase of HIFMIP will replace
only two of the five financial management systems, resulting in the creation of the new
Integrated Core Financial System (ICFS). It is not clear how this new system will lessen the
dependency on and integrate with the other three core financial systems, nor is it clear how
completion of this first phase will reduce or eliminate the manual processing necessary to
generate HUD’s consolidated financial statements. Since 2003, HUD has spent more than $35
million to implement the HIFMIP vision, including the implementation of ICFS.

Delays have plagued the Project since 2006 and HUD’s Deputy Secretary stopped it in March
2012. Based on the contract that was awarded in September 2010, the implementation date for
ICFS was N arch 2012. In the summer of 201 1. the Project contractor proposed changing the
implementation date to May 2012. However. HUD did not formally approve the proposed new
date. In March 2012, the Project was stopped. and HUD began reevaluating its options for the
Project. HUD could revise the Project plan to implement a “go live” in the first or second
quarter of fiscal year 201 3 or develop and implement a “phased” approach in fiscal year 2013 or
2014. This change in direction would require that HUD quickly address the risks; apply
additional resources; and analyze contract, funding, and Project schedule issues. If this was not
possible, another option was to cancel the implementation of ICFS and stay with the current
HUD Central Accounting and Program System. However, staying with this system would
require enhancements to the legacy financial system over time to reduce risk associated with
audit, security, financial reporting, and operational effectiveness.

Project sponsorship of the Project has been transferred from the Office of the Chief Financial
Officer (OCFO) to the HUD Deputy Secretary. The Deputy Secretary and a working group
comprised of the OCFO. Office of the Chief Information Officer, and the Office of the Chief
Procurement Officer are reassessing its options for the Project. To date. HUD has spent more
than $35 million on the Project.

Our audit objective was to review HUD’s readiness to fully implement ICFS. Specifically, we
wanted to determine whether HUD had properly planned and managed the implementation of
ICFS. We focused on implementation activities related to data conversion and key interfaces
with ICFS.




                                                .1
                                        RESULTS OF AUDIT


Finding 1: OCFO Did Not Properly Plan and Manage the
Implementation of ICFS
The OCFO did not properly plan and manage the application interfaces and data conversion
portions for the implementation of ICFS. This condition occurred because HUD did not apply
(maintain) a consistent project management philosophy nor did it implement the
recommendations of the Project roadmap, As a result, $35 million has already been spent on the
Project; ICES was not completed within the initial contract period; the Project may be in
jeopardy; and additional time and funding will be needed to complete the Project.




               Project Information Was Not Updated Before Contract Execution
               OCFO did not update Project information between the end of the planning phase
               and the execution of the Project contract. In 2003, HUD initiated the Project with
               the original scope identified as a multiyear project to replace HUD’s core
               financial system with a solution that integrated financial information HUD-wide.
               The plans essentially affected 34 separate applications within the agency and 73
               existing interfaces between computer systems.

               The HIFMIP contract solicitation and statement of objectives were issued in fiscal
               year (FY) 2006. These documents were created based upon HIFMIP project
               documentation created in the early phases of the project (through FY 2005) and
               those documents were provided to all contractors for review in the request for
               proposal, development of a perfonTlance work statement, and etc. The systems
               listed in these documents, current at the time they were written, changed between
               2005 and 2010, when the HIFMIP ICFS contract was awarded. Because of this,
               new and retired systems were not reflected in the HIFMIP contract that was
               awarded in September, 2010. Including outdated project documentation within
               the contract solicitation resulted in the execution of a contract with inaccurate
               information regarding the scope of work to be performed. This required
               additional time and resources from both HUD and contractor staff and delayed the
               definition of interface requirements and the completion of several interfaces.

               In December 2010, we issued a finding
                                                1 that Project planning documents had not
               been updated to reflect current conditions. We noted that within the 18-month

Audit Report 201 l-DP-0003   -   HUD Did Not Fully Comply With the Requirements of 0MB Circular A-127.

                                                       4
                   window for accomplishing the initial implementation, the contractor would have
                   to update Project documentation, reevaluate system interfaces due to changes in
                   HUD’s computing environment over the years. and assess changes in Federal
                   requirements. OCFO officials stated that they did not see a need to update the
                   vision and requirements documents developed through fiscal year 2005 because
                   they believed that neither the amount of time elapsed nor detail changes would
                   alter the objectives that the contractor would agree to perform for a fixed price.
                   OCFO officials also stated that the contract would include objectives to verify that
                   HUD was current with Federal requirements and to maintain that position
                   throughout the life of the contract.

                   Office of Management and Budget (0MB) Circular A- 127, section 6, part H,
                   requires that agencies implementing anew core financial management system
                   monitor the project’s progress and institute performance measures to ensure that it
                   is on schedule and within budget. Agencies must also assess risks regularly and
                   mitigate them in a timely manner. OCFO did not regularly assess the risks. The
                   systems listed in the Project planning documents, current at the time it was
                   written, changed between 2005 and 2010, when the Project’s ICFS contract was
                   awarded.

                   OCFO Did Not Follow Up With Program System Owners
                   OCFO did not follow up with program office system owners during the 5-year
                   period between the completion of the planning phase and the execution of the
                   contract to ensure that actions required from the system owners had been
                   completed. Specifically, OCFO did not ensure that maintenance contracts for
                   those systems required to interface with ICFS contained clauses and funding to
                   complete the work, contrary to HUD’s system development methodology. This
                   section provides that HUD should “Clarify resource availability before a system
                   project proceeds. Beginning with the approval of a project, the continuation of a
                   system project is contingent on a clear commitment from the sponsoring
                   management. This commitment is embodied in the assurance that the necessary
                   resources will be available, not for the next activity only, but for the remainder of
                   the lifecycle.”

                   For example, the contract for the newly implemented HUD Integrated Acquisition
                                 3 contained requirements and funding to create an interface
                   Management System
                            4 application; however, ICFS was not included. HUD’s
                   with the HUDCAPS
                   planned interface with the Facilities Resource Management System was not
                   completed because the maintenance contract for the application expired in August
2
    l-IUD System Development Methodology. Introduction. Page 9.
 HUD Integrated Acquisition Management System is a Web-based software that is the acquisition package most
widely used in government. It can be customized as needed to meet BUD’s specific requirements.
‘


 IIUDCAPS captures. reports. controls, and summarizes the results of the accounting processes. including budget
execution and funds control, accounts receivable and collections, accounts payable, and the general ledger.
 The Facilities Integrated Resource Management System is used to maintain HUT) data on its space alterations
projects. office equipment. and leased office space.
                   of 201 1 and had not been renewed. The planned interface with FedTraveler was
                   delayed because necessary contract modifications and funding to have the U.S.
                   General Services Administration’s vendor-contractor participate in the process
                   had not been completed. The lack of OCFO follow-up with the system owners, to
                   ensure that actions required from the program office system owners had been
                   completed. contributed to the delays.

                   OCFO Did Not Plan for the Conversion of Public and Indian Housing Data
                   Within HUDCAPS
                   OCFO did not fully exercise its financial management authority, as provided by
                  the Chief Financial Officers Act of 1990 (Public Law 101-576), to oversee the
                  conversion of public and Indian housing data within HUDCAPS. On August 1,
                  2005, the Assistant CFO for Budget sent a memorandum to the General Deputy
                  Assistant Secretary for Public and Indian Housing discussing the HIFMIP project
                  and their plans to issue a request for proposal. Within the memorandum, the
                  Assistant CFO informed PIH that “The HIFMIP budget, timeline and scope do
                  not provide either the time or resources to modify the new core financial system
                  to perform programmatic functions.” The Office of Public and Indian Housing
                  did not complete the conversion and transfer of voucher and moderate
                  rehabilitation program data in the HUDCAPS accounting system, and OCFO did
                  not adequately monitor HUD’s actions and plan for a mitigation strategy before
                  executing the contract in September 2010. OMB’s guidance to agencies specifies
                  that an OCFO should have the authority to manage directly or monitor, evaluate,
                  and approve the design, budget, development, implementation, operation, and
                  enhancement of agencywide and agency component accounting, financial, and
                  asset management systems. One of the original objectives for the Project was to
                  retire HUDCAPS. The Office of Public and Indian Housing maintains critical
                  tenant-based rental assistance program data in HUDCAPS. but PeopleSofl
                                                                                 7 cannot
                  address the data requirements without customization. Thus, HUDCAPS could not
                  be turned off, as the customization had not been completed.

                  OCFO Did Not Set Up a Project Performance Measurement Baseline for Each
                  Data Conversion Cycle
                  The performance measurement baseline was necessary so that OCFO
                  management could receive timely results from each of the mock conversion
                  cycles and properly measure and analyze Project performance. The Project
                  contract requires the contractor to conduct at least three mock data conversions
                  and deliver the results in an analysis report. However. OCFO did not negotiate
                  with the contractor to establish a baseline due date for each conversion. Rather,
                  only one baseline due date was used to measure the Project performance at the
                  end of the third conversion cycle. As a result. OCFO could not ensure that all

  Fedtraveler is a comprehensive, end-to-end service to plan. book. track, approve, and request reimbursement for
travel services for the Federal employee.
 PeopleSoft is an integrated software package that provides a wide variety of business applications to assist in the
day-to-day execution and operation of business processes. Each individual application interacts with others to offer
an effective and efficient means of working and reporting results.

                                                         6
                   conversion issues identified during the two conversion cycles were followed up in
                   a timely manner.

                   OCFO Did Not Ensure That the Scope of the Conversion in the Conversion Plan
                   Would Meet HUD’s Needs and Comply With the Project Contract
                   OCFO’s financial systems maintain about 15 years of financial transactions, and
                   HUD needs to have historical data converted to ICFS due to the high level of
                   demand for ad hoc reporting using historical data. However, at the contractor’s
                   recommendation, OCFO management agreed to allow the contractor to convert
                   only fiscal years 2011 and 2012 financial transactions. As a result, OCFO’s
                   ability to produce reports based on historical data could be limited if HUDCAPS
                   is retired.




                   OCFO Did Not Involve Key Staff in Decisions
                   OCFO did not assign specific individuals and obtain the participation of skilled
                   individuals for each of the interfaces or use integrated project teams in the
                   interface decision-making processes as recommended in HUD’s system
                   development methodology
                                  8 for life cycle management projects. Specifically,
                   OCFO assigned a project manager for the Project when the contract was awarded
                   in September 2010; however, it did not formally assign specific individuals to
                   lead the various aspects of the Project, including the interfaces. HUD’s system
                   development methodology states that specific individuals should be assigned to
                   perform key roles throughout system development. Certain roles are considered
                   vital to a successful system project, and at least one individual should be assigned
                   to fulfill each role. More than one individual should represent the users of the
                   system to help fully accomplish the objectives of the project and assist in making
                   decisions that could affect the users. Further, the skill of the individuals
                   participating in a system project is the single most significant factor in a
                   successful project. Because OCFO did not assign a specific individual to be
                   responsible for the interface portion of the Project, obtain the participation of
                   skilled individuals, and use integrated project teams to make decisions, it
                   essentially left control of the Project to the contractor.

                  OCFO Did Not Ensure That all Program Office Stakeholders Were Involved With
                  the Data Conversion-Related Activities
                  Although the Project contractor and Project team held information exchange
                  meetings with stakeholders such as the Office of Community Planning and
                  Development, Office of Policy Development and Research, Office of Fair
                  Housing and Equal Opportunity, and Office of Healthy Homes and Lead Hazard
                  Control during the initial phase, the Project contractor and Project team did not

8
    HUD System Development Methodology, Introduction, Pages 8-9,

                                                      7
                  have additional meetings with these stakeholders to discuss conversion-related
                  activities throughout the Project. HUD’s project planning and management life
                  cycle procedures state that the project should “Identify stakeholders and
                  organizations that are impacted and/or have a stake in the success of the project.
                  Many of these stakeholders may become members of the Integrated Project
                  Teams (IPT) and play a signiticant role in the execution of the project. The IPT
                  works as a team of decision makers to achieve consensus on tasks related to
                  guiding projects through the PPM [project planning and management] Life,
                  Cycle.”

                  Additionally, befbre executing the integrated baseline review,
                                                                          9 management did
                  not ensure that the performance measurement baseline reflected the entire scope
                  of work, documented at the appropriate level of detail. Therefore, OFCO was not
                  able to fully incorporate the business needs of the program offices. Also, OFCO
                  did not adequately coordinate with program offices on the data that would be
                  converted. As a result, HUD management could not ensure that the conversion
                  process followed by the contractor would provide successful data migration.

                  OCFO Did Not Establish an Effective Process for Approving Interface-Related
                  Deliverables
                  OFCO did not track to whom deliverables were sent for review or complete
                  reviews of the interface-related deliverables in a timely manner. The Project
                  contract was executed September 23, 2010, and established the mechanism for
                  approval of the Project in phases through the acceptance of contract deliverables.
                  Based on that process, the Chief Financial Officer’s government technical
                  representative established a tracking spreadsheet for documenting receipt and
                  approval or rejection of the contract deliverables. The Chief Financial Officer’s
                  government technical monitor was responsible for reviewing the documentation,
                  determining who on the HUD staff needed to review and approve the
                  documentation, and tracking that process to recommend either acceptance or
                  rejection to the government technical representative. The government technical
                  monitor did not track to whom documents were sent for review. Although
                  required completion dates were established, HUD did not always accept or reject
                  the submitted documents within the established review period.

                  A change control board° was created to address concerns regarding Project
                  completion within the base period, and in August 2011, interface specification
                  approach documents were approved by the board to allow the contractor to begin
                  to design the interfaces. OCFO approved the approach that would be applied to
                  the design; however, design and specification documents were not approved

 The integrated baseline review is a formal review or assessment of the contractofs performance measurement
baseline. The review involves a discussion and evaluation of the performance measurement risks and management
controls.
  A change control board serves as the decision-making body for each program area project. The (CR is the
control mechanism for the program office that has requested the need for which the project has been initiated. For
ICFS. this included staff from OCF() and the Project contractor. (System Development Methodology. Section 1)

                                                         8
                  before the contractor began to develop the interface programs. HUD’s system
                  development methodology requires that the project sponsor “document
                  completely and accurately activity results and decisions.” The document further
                  establishes a link between effective communication and coordination of activities
                  throughout system development and indicates that effective communication is
                  dependent on the complete and accurate documentation of decisions and activities
                  leading up to decisions. Activities and decisions should not be considered
                  complete until there is tangible documentation of the activity or decision.

                  OCFO Did Not Ensure That Data Converted Were Adequately Verified and
                  Validated by a HUD Official or an Independent Verification and Validation
                  Contractor
                        11 1 and 2 were completed in September and November 2011.
                  Mock conversions
                  However, the Project contractor was not able to grant OCFO officials’ access to

                  TCFS to verify the converted data until November 2011. HUD needed access to
                  compare source data files and converted data electronically during the mock 1 and
                  mock 2 conversions. As a result, HUD did not have sufficient time to identify
                  and resolve issues of mock 1 and mock 2 conversions before moving forward
                  with mock conversion 3.

                  Also, BUD did not comply with its project planning and management procedures
                  to ensure that an approved independent verification and validation plan and test
                  plan were in place before starting the data conversion process. Without verifying
                  and validating converted data after each conversion cycle independently, HUD
                  management could not ensure that all data were transferred to the new system
                  accurately.

                  OCFO Did Not Ensure That the Project Contractor Complied With the Scope of
                  the Conversion as Approved in the Conversion Plan
                  The contractor was required to convert 11 months of fiscal year 2011 financial
                  data during the mock I conversion cycle. The Project contract states that “the
                  Contractor shall design its conversion programs to convert HUD’s historical,
                  closed-item data.” However, the contractor did not convert all of the fiscal year
                  2011 financial data that OCFO provided to it. OCFO management informed the
                  OIG that the Project contractor did not do so because the software used for the
                  new financial system was not ready and the contractor needed to focus on
                  completing the software.

                 Because OCFO did not ensure that the Project contractor complied with the scope
                 of the conversion, the contractor did not convert all data specified by the contract.
                 OCFO was not able to verify the data or rectify any issues affecting a complete
                 data conversion before continuing to the next mock conversion.




  According to the approved data conversion plan, the Project contractor was required to conduct three mock data
conversions before the production conversion.

                                                        9
           OCFO Was Not Consistent With the Interface Approach
           ICFS was originally scheduled to go live in March 2012, and to meet that
           deadline, the contractor proceeded, although HU D had not approved contract
           deliverables that had been submitted. During a Project status meeting in May
           2011, the contractor informed BUD that the status of the interface portion of the
           Project would be changed to a higher risk level if the interface design documents
           were not approved by the following day. This issue resulted in a review of the
           interface design documents submitted and a decision that the proposed designs
           needed to be revised in July 2011. The OCFO project manager met with the
           Deputy Assistant Chief Financial Officer for Systems and the contractors to revise
           the design of the interfaces and change the focus from application-based to
           transaction-based interfaces. The resulting modifications delayed the start of
           programming for the interfaces. Due to these changes, the Project contractor also
           requested that the go live date be changed to May 2012 and requested additional
           funding for the Project. In addition, contractor performed testing of the interfaces
           was limited to the portion of the interface that the contractor created. Additional
           testing of the complete interface will be required once the interfaces are
           completed.

OCFO Did Not Maintain a
Consistent Project Management
Philosophy


           The final Project roadmap document, dated December 2005, included specific
           details regarding the actions that HUD needed to take to accomplish the Project
           on time, within budget and scope. The document specifically outlined
           1. A project structure indicating that the Project affected all program,
              administrative, and support organizations within BUD and required their
              support, input, and resources to achieve the new ICFS on time, on budget, and
              within scope.
           2. Actions that the project management team needed to accomplish related to the
              existing financial systems data.
           3. The requirement to prepare fur impacts on the legacy systems and interfaces
              by developing a maintenance contract update strategy and plan for all affected
              systems, working with procurement staff to issue or modify the legacy
              systems maintenance contracts to support Project requirements.
           4. The inclusion of specific individuals with expertise for each interface to be
              developed and maintained.
           5. The need to maintain a liaison with other HUD and external system owners
              and sponsors SO that they could assess the impact on the Project.

           These specifications listed in the roadmap set the parameters for a comprehensive
           Project management philosophy. However, HUD did not implement or maintain

                                            10
                  this philosophy, as it did not implement the recommendations of the initial Project
                  roadmap document or follow H UD’ s system development methodology
                  requirements.

                   The recommendations that resulted from the initial phase of the Project were
                   summarized in the document, “HUD’s Financial Management Vision,” issued in
                  July 2005. The original Project vision called for the replacement of HUDCAPS,
                   , Hyperion,’
                   12
                   PAS    3 the Financial Data Mart,      14 and the portions of the Line of
                  Credit Control System (LOCCS)
                                          15 that related to core financial functions. The
                  document included specific information regarding the justification for each
                  application. It concluded that HUDCAPS. PAS. and LOCCS were not Office of
                  Federal Financial Management compliant applications and that they ran on
                  outdated technology that was costly to maintain. It also indicated that the
                  reconciliation of HUDCAPS required an “extraordinary effort” from HUD staff to
                  accomplish monthly and at year end and that the batch processing of financial
                  transactions between PAS and HUDCAPS resulted in untimely financial
                  information. In addition, the results of HUD’s analysis concluded that the
                  functionality provided by both Hypenon and the Financial Data Mart would be
                  accomplished in a more efficient and integrated manner through replacement. As
                  the project progressed after the contract was let, decisions were made that revised
                  the scope of the Project to eliminate only the HUDCAPS and PAS applications.
                  As a result, HUD would continue to rely on the LOCCS, Hyperion, and Financial
                  DataMart applications and would decrease the amount of functionality it would
                  use within the new core financial system product. Peoplesoft. This decision also
                  meant that additional interfaces among these applications had to be created and
                  maintained.



 12
   PAS is an integrated subsidiary ledger for HUD’s grant, subsidy, and loan programs. PAS maintains accounting
records based on the receipt of funding authorizations from HUDCAPS. which generates transaction activity at
different levels.
   Hyperion is HUD’s consolidated financial statement system. It captures, records, and summarizes 1-IUD’s
financial results of operations across all business areas in accordance with the requirements defined by 0MB. the
U.S. Government Accountability Office. the U.S. Department of the Treasury. Congress. and HUD program otfices
to fulfill HUD’s quarterly and annual Treasury reporting requirements.
14
  The Financial Data Mart was created to provide a consolidated reporting environment of HUDs financial data to
users to create ad hoc queries and reports for analysis and execute canned financial reports.
   LOCCS supports OCFO and all HUD program offices in coordinating and controlling grant. loan, and subsidy
disbursements. The system is the Chief Financial Officer’s primary vehicle for cash management while monitoring
disbursements according to the individual control requirements used by HUD program offices to ensure program
compliance. LOCCS is both a payment control tool and a IIUD post award financial grants management system.
LOCCS is also the link that connects HUD’s program management information systems to its program accounting
data.
1(,
  The Office of Federal Financial Management exists within 0MB and is responsible for the financial management
policy of the Federal Government. Its responsibilities include implementing the financial management improvement
priorities of the President, establishing government wide financial management policies of executive agencies. and
carrying out the financial management functions of the Chief Financial Officers Act of 1990.

                                                        11
             Through fiscal year 2008, 1-IUD spent $12.3 million on the initiation of the Project
             and development of the Project vision, requirements definition, transition support,
             and request for proposal technical evaluation assistance. Through May 2012.
             includmg the initial S 12.3 million, HUD had spent more than 535 million (see
             appendix B) on implementation tasks to get the Project to go live. As part of this
             process, Project documentation detailing data requirements, functional
             requirements, legacy system disposition, and Project plans moving forward were
             developed. The decisions HUD made regarding the implementation of ICFS were
             not in line with the original plan and modified the amount of work the contractor
             was expected to accomplish within the contract base period.

Conclusion

             OCFO did not update the original scope of the Project or implement the
             recommendations of the initial Project roadmap to ensure that the Project was
             ready to move forward before the contract was executed. HUD did not fully
             embrace its authority under the Chief Financial Officers Act of 1990, fhllow
             H V D’s system development methodology requirements, or effectively
             communicate with the other affected system owners. In addition, OCFO did not
             formally assign a specific individual to be responsible for the interface portion of
             the Project, use inte’ated project teams to make decisions, establish an adequate
             contract deliverable review process, or establish an interface approach early in the
             process. It essentially left control of the Project to the contractor. As a result,
             HUD does not have an operational new core financial system, and more than $35
             million was spent on a project that is not operational. Additional time and
             funding will be needed to complete the Project.

             As HUD assesses the future of the Project, it is clear that it is in jeopardy and that
             additional time and funding will be needed to complete the implementation of
             ICFS. A decision to abandon the Project and maintain HUDCAPS will result in
             $35 million being lost and additional funding will be required to upgrade
             HUDCAPS. While HUD is making decisions on the Project and its approach,
             additional money is being spent to maintain the applications and interfaces that
             ICFS was suppose to replace. A decision to modify either the contractor or the
             software application would also result in the loss of money spent and the need for
             additional funding. As the decisions regarding the Project are contemplated.
             HUD needs to ensure that the Project is properly planned and managed, that the
             objectives of the department are met and that any additional funding spent
             towards the Project is appropriate and progressive.




                                               12
Recommendations

          \Ve recommend that the Deputy Secretary:

          IA.    Ensure that revisions are made to the contractor performance work
                 statement moving forward on the Project to ensure its accuracy regarding
                 the work to he accomplished.
          1 B.   Complete the required modifications in the maintenance contracts for
                 program office systems that interface with ICFS to ensure that the Project
                 can move forward smoothly.
          IC.    Establish a performance measurement baseline for each mock conversion
                 cycle.
          ID. Ensure that the HUDCAPS application remains available for program office
              use until a replacement application is complete or an adequate work-around
              is established.
          1 E.   Assign specific individuals to be responsible for each of the interfaces
                 within the Project moving forward.
          IF.    Establish integrated project teams to review the interface specifications and
                 designs to ensure that they are in line with programmatic and technical
                 requirements.
          1G. Reevaluate the document approval process for the Project; establish a
              mechanism to ensure that Project approvals are provided by the suitable
              level of management; and confirm a continued commitment to the Project
              scope, direction, and resource requirements.
          I H. Reevaluate the interface approach and design documents to ensure that
               timely approvals are made regarding the interfaces in line with the Project
               scope, direction. and resource requirements.
          11.    Ensure that complete end-to-end testing of the interface processes is
                 completed.
          IJ.    Verify that all fiscal year 2011 data are properly converted in the new
                 system and the conversion scope requirements are met as stated in the
                 contract.
          I K.   Ensure that the new independent verification and validation contractor
                 develops and approves a verification and validation plan and test plan betire
                 conducting the revised conversion process.
          I L.   Ensure that future information technology projects managed by OCFO
                 require that converted data be ‘verified by HUD officials or an independent
                 verification and validation contractor before the beginning of the next
                 conversion cycle.




                                            13
                         SCOPE AND METHODOLOGY

The audit was perftwmed between February and June 2012 at HUD headquarters. Washington.
DC. Data reviewed were for the period 2004. the initiation of the Project. to July 2012. after the
base period of the contract ended. Our overall objective was to evaluate whether HUD was
ready to move forward with the full implementation of ICFS. Specitically. we reviewed data
conversion activities and interface plans and procedures for the new ICFS application to
determine whether they were designed and built as intended so that all pertinent data would he
extracted, free of errors and omissions, and accurately transferred. To accomplish our objective.
we
    •   Used 0MB Circular A-127, HUD’s system development methodology, the Chief
        Financial Officers Act of 1990, HUD acquisition regulations, the Office of the Chief
        Information Officer’s Integrated Review Baseline Guide, and HUD’s project planning
        and management life cycle procedures as guidance.
    •   Conducted interviews with staff and contractors from OCFO and the Office of the Chief
        Procurement Officer and reviewed the Project contract.
   •    Obtained an understanding of the interface requirements, data conversion specifications,
        and the Project deliverable and approval process.
   •    Reviewed the contract and supporting documentation for planned interfaces and data
        conversion methodologies.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our tindings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                14
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management.
designed to provide reasonable assurance about the achievement of the organization’s mission.
goals. and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans. policies, methods. and procedures used to meet the
organization’s mission. goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  •    Up-to-date written policies and procedures to ensure that data conversion
                       and interfaces were complete and valid,
                  •    Compliance with Federal requirements, and
                  •    Design and implementation of policies and procedures.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations. (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




               Based on our review, we believe that the following item is a significant deficiency:

                   •   OCFO did not properly plan and manage the application interfaces and
                       data conversion portions for the implementation of ICFS.




                                                 15
                                             APPENDIXES

Appendix A


         AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                                    Auditee Comments

Comment 1


                                                                I
                                     US. DEPAtWT O HOUSM AraI3 URBAN OPttNT
                                                         1H DPUy SECRt?ART
                                                           nAantatoN     an




                                          W. Mc(iri.\aneuo             peor (iarrar& 15r Au±it GA


                   FtOV           %faxice A Janea. LJepoi oiar D                                        \
                   S!3JFCT        Rctew c’ftha Data C oraaak>n ALtiesaod                  rate     Pant and Ieduret
                                  for th nira: or. of tC.f). -n (ore                        J1an,1


                          on nr runt dn r ndt            the audr on the      nar.nr ofoui rr[etar.
                   Fr,aic.aI Syaom. 3raed .o an aesut ed n.i ar piioo’ 11                          erg tia’.

                   irdrn ha 4aI3at1jr 1’,jje I’ou aro ‘nrc enr. w dned                     eorn a S,nred Senvkan
                  aepro± wnI Lba Iuranu of Public Z)en. JP) We are in thc DLwver Piaa with BPL). the
                                                                       p1rcnt pgj
C’ omment 1       grar of watcb i       de’p a planathie plan
                   asawrürag thin anltnian oaaken aen    fr an. if cnn. the deWeerthie will ha. a piaec in             the
                  •agrned apon tenecan that rank a        :. fat HUD. iha d•   vercibic will In.ciuda a potenti.ai pUnt
                                meiantndcir. approach tind. tincdbce, To inccugn ijat atcas of thin pat4ct wc .aat
                    nvthcing abec niatior             from program arid nippon cbThan eatly Ut bat penot. matcbbcg
                   ite projcct datherabina with HUDU capacity (6.U iriorith delhwrabiet trn. new three deliverable,
                  .an atilthing Uris P.PK1 Irtnat n.4hle rwoqxwaIiig itt’Ds pUce docnnicecta We plan ru
                             tOe rrkeareO 01 soUr learn in our 00mev.

                   ft          addi:ro:.al tort unu :oc tat an inr. picate    -atrit hcartale h: rrir1tK1 r:-   I
                   irward     woe-kr win         inire ii in




                  cC
                  IU4thd Sititni. (thief Pina.nciai (thifirer. f
                  Jerry Wlihia.nat Chi fitiforenailon ofrant, Q
                  Jcrnin ltryorr Chef Prata- n-cur 0ff:uou N
                  K-err, Moltredir.    rarre Prihçv trruJ .ce F-A
                  [nero-c DaaL.r.s. eUar F-injurer f)9r---u SD
                  Flaroe g-Uo:i ,roiu,r               Si)




                                                              16
                 OIG Evaluation of Auditee Comments

Comment 1   We appreciate the update for the moving forward strategies.




                                     17
Appendix B

TOTAL PROJECT COST FROM FISCAL YEARS 2003 to 2012



          Total Project cost from fiscal years 2003 to 2012

                                                                Development,
                 Project cost description                      modernization,
                                                              and enhancement
Project vision                                                            S 1 .0
Project initiate                                                          S0.7
Requirements definition                                                   S () .5
Transition support                                                              50.5
Request for proposal technical evaluation assistance                          50.6
Total actual costs for fiscal years 2003 to 2008                            S 12.3
I 8-month Project base period for actual implementation
tasks for ICFS (September 2010-March 2012) (Federal                         $23.0
Housing Administration subsidiary ledger and ICFS)

Total cost as of May 2012                                                   S35.3


Notes:
I. Cost is in millions of dollars.
2. No cost was incurred in fiscal year 2009 due to a protest to the contract.




                                                18
Appendix C

HIFMIP Timeline from 2004 to 2012



                                                                          HIFMIP Timeine


                                           4 2306     -   Acquloltu nock hulled                                             02010 0MB outed
                                                                                                                                     -




                                                                                                                            MCt1tdt/ MW--IS :ud
    2304   imltil Vitco docom-ent          5 2006 Stateucenl de
                                                             cthoc
                                                             50
                                             ntpkled
                                                                                                                            7 2010            to   0MB lot
  0 2504    30tte cto1ect phuse            3 2006 Inthal Reqtteui for                                                       appiocul
  deduced cotnpleft’d                      PropotuL. S        ottinot tuned
                                                                                                                            9-2010 0MB upprovul to more
  8./2004 Define phuse utotted.            8/2000 CFO tended acquisition                                                    forwurd
  (ended 0/2010)                           strutegy
                                                                                                                            9/2010 Cat ctaward
                                           l02006 Figal solic;luttou touted




                                                                                              :oos              I    2000                I   1010                I   :oii         201:




                                                                              2/2008 Inittal Project Manager
                                                                                     -


                                                                                                                                                         5-2011 Proect
                                                                                                                                                                 -

                                                                              led
                                                                                                                                                         status code for       32012     -   Project halted
                      2005 Functtonal md
                                                                              102008     -   Intnul contract award                                       inteifuce Occtton
                    Detail equments                                                                                                                                              I:_         Base peatod
                                                                                                                                                         tttcoed to luh cask             -




                    7 2005 Kersed Vts:on
                             -
                                                                              12 2078 -Conlractpcoteaed                                                               -        0. couttact extended
                    Document tsuted                                                                                                                                            32012
                    10 2005- Legacy                                                                                                                                            Maiiaen replaced
                    Srstetfls sgy,tlen Pj
                      2005   -   COTS selectton                                                                                                                                :ont: ott extensacn
                                                                                                                                                                               svatded




                                                                                                     19
